March 26, 2004
Report No. 04-014


XBAT Contracting and Project Management




          EVALUATION REPORT
Federal Deposit Insurance Corporation                                                                     Office of Audits
801 17th St. NW Washington DC, 20434                                                         Office of Inspector General



DATE:                                  March 26, 2004

MEMORANDUM TO:                         Arthur Murton, Director
                                       Division of Insurance and Research

                                       Michael E. Bartell, Chief Information Officer and Director
                                       Division of Information Resources Management

FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

                                       Michael MacDermott [Electronically produced version; original signed by Michael
                                       MacDermott]
                                       Acting Director, Office of Internal Control Management

SUBJECT:                               XBAT Contracting and Project Management
                                       Capital (Report No. 04-014)

The subject final report is provided for your information and use. Please refer to the Executive
Summary section for the overall results of our review. Our evaluation of responses is
incorporated into the body of the report, and the Division of Administration’s written response is
included in its entirety as an appendix to the report.
If you have any questions concerning the report, please contact Stephen Beard, Deputy Assistant
Inspector General for Audits, at (202) 416-4217, or Marshall Gentry, Director, Corporate
Evaluations, at (202) 416-2919. We appreciate the courtesies extended to the evaluation staff.


Attachment

cc: Arleas Upton Kea, DOA
                                                                                                           Table of Contents




Table of Contents


EXECUTIVE SUMMARY.....................................................................................................1

BACKGROUND...................................................................................................................3

EVALUATION RESULTS....................................................................................................5

     Functional Requirements............................................................................................5
     Procurement Planning and Execution ......................................................................8
     Contract Administration............................................................................................14
     Change Management and Project Integration..................................................…. 17
     Communications ........................................................................................................22
     System Development Life Cycle ..............................................................................25

CORPORATION COMMENTS AND OIG EVALUATION………………………………….29

APPENDIX I: Objective, Scope , and Methodology...............……………..…………….30

APPENDIX II: XBAT Contracting and Project Management Challenges...................33

APPENDIX III: Key Events in the XBAT Project.......................................................….36

APPENDIX IV: XBAT Procurement Requirements...................................................…37

APPENDIX V: Corporation Comments………………………………………….. .……. 38

TABLES

     Table 1: Key Lessons to be Learned From the XBAT Development Effort….......2
     Table 2: Call Mod Project Objectives…………………………………………………...3
     Table 3: XBAT Functional Requirements………………………………………………6
     Table 4: APM Task Order Requirements………………………………………..……...9
     Table 5: XBAT Contract Award and Execution Departures
               From APM Provisions………………………….……………………………12
     Table 6: SDLC Testing Requirements.....................................................................27
     Table 7: XBAT Invoices and Payment Dates…………….……………………….…..27

FIGURES

     Figure 1: XBRL Business Analyst Tool Estimated and Actual
                Development Costs……………………………………..………………..…11
     Figure 2: Project Integration Timeline…………………..……..……….……………..21
                                                                           Executive Summary




Executive Summary
At the request of Corporation senior managers, we evaluated the Extensible Business Reporting
Language (XBRL) Business Analyst Tool (XBAT) contracting and development effort. The
XBAT is an important component of the larger Call Report Processing Modernization (Call Mod)
project, an FDIC Chairman initiative and interagency effort to develop a centralized data
collection, validation, integration, and distribution system to replace the existing Call Report
process. A key part of the Call Mod project is the implementation of a Central Data Repository
(CDR) that will use emerging technologies to effectively collect and process Call Report data.
FDIC tasked the Institution Data Management project team (IDM team), within the Division of
Insurance and Research (DIR), with implementing the XBAT and CDR efforts. The FDIC
engaged a contractor to develop the first version of XBAT to certain specifications and promised
the delivery of XBAT under the larger CDR contract. However, following CDR contract award,
the winning CDR bidder determined that XBAT did not meet all of the specifications the FDIC
had promised to the CDR vendor.

EVALUATION OBJECTIVE


FDIC executives expressed concerns that the XBAT product delivered to the CDR contractor
was not fully functional and asked us to identify lessons learned in contract administration and
project management that could be applied to the larger CDR effort. Accordingly, our objective
was to assess the adequacy of FDIC’s contract administration and project management for the
development of XBAT. Appendix I discusses our objective, scope, and methodology.

WHAT WE FOUND


The FDIC received some value from the XBAT procurement. The XBAT contractor was to
develop and deliver two products: (1) a framework of taxonomies for use by software vendors to
develop Call Report software for financial institutions’ use and (2) a software product (XBAT) for
creating, editing, and publishing taxonomies. Taxonomies contain common terms, definitions,
and relationships for Call Report data items. DIR and the CDR contractor concluded the
taxonomies were well developed and are being used by the software vendors to develop
software. DIR considered it imperative to deliver the taxonomies to the software vendors early
in the process to ensure timely implementation of the Call Mod project.

The development of the XBAT software was not successful. The FDIC determined that XBAT
lacked the functionality to successfully manage Call Report taxonomies. As a result, FDIC
issued a change order to the CDR contract for the development of a Metadata Management
Tool (MMT) that will replace XBAT. According to the CDR contractor, development of the MMT
should not impact the overall milestones for implementing the CDR.

We concluded that the XBAT procurement effort was impaired by a number of contracting and
project management issues. Specifically:

   •   FDIC did not establish XBAT functional requirements early enough in the contracting
       process. As a result, neither the FDIC nor the XBAT contractor had a clear and
       consistent understanding of the functionality the XBAT should include.
                                                                                        Executive Summary




    •   FDIC did not adequately plan or execute the XBAT procurement effort. To meet cost
        and time constraints, the IDM team waived important XBAT requirements intended to
        support the overall CDR effort. Consequently, the quality of the XBAT software suffered.
        Further, because the procurement did not consistently follow the FDIC Acquisition Policy
        Manual (APM), the FDIC was party to a contract that did not protect the Corporation’s
        best interests.

    •   The contracting officer (CO) and oversight manager (OM) did not completely fulfill their
        responsibilities and relied on the technical monitor (TM) for making changes to the
        functional requirements, accepting contract deliverables, and approving a key invoice
        payment. As a result, the procurement did not have adequate checks and balances to
        help ensure the project’s success.

    •   FDIC did not exercise adequate change management or project integration during the
        XBAT development effort and the CDR solicitation process. The CDR solicitation
        promised a fully functioning XBAT at the same time that the IDM team was waiving
        important functional requirements in order to meet cost constraints and product delivery
        milestones. As a result, FDIC promised a software product containing functionality that it
        could not deliver and had to reprocure the effort.

    •   Communication within and between the IDM team, senior-level managers, and the
        acquisition team (CO, OM, and TM) was not effective. Accordingly, DIR executives and
        CDR bidders were not aware of the true status of the XBAT development effort.

    •   XBAT development did not fully comply with FDIC’s System Development Life Cycle
        (SDLC). Most importantly, FDIC paid the XBAT contractor before completely testing
        XBAT. Thus, FDIC had limited financial leverage to compel contractor performance.

These conditions occurred because the FDIC did not always follow established acquisition
procedures, prudent project management practices, or the SDLC. As a result, the FDIC paid for
software that did not meet all corporate needs or expectations and had to issue a change order
to redevelop the software. Moreover, the conditions exposed the FDIC to risks for potential
delays in the CDR project and to reputation risk in the eyes of the CDR contractor, other
banking agencies, and FDIC-insured institutions (see Appendix II).

This report identifies a number of lessons learned. Table 1 presents the most important lessons
to be applied to future system development contracting efforts.

Table 1: Key Lessons to be Learned From the XBAT Development Effort
Contracting                                              Project Management

Functional requirements should be established early in   Closely coordinate projects that are interdependent, and
the procurement process.                                 promise only what can be realistically delivered.

Changes to system requirements should not be driven      Continually evaluate communication channels to ensure
solely by resource and schedule constraints —            they are open and effective and provide balanced and
consideration must also be given to impact on business   complete information about a project’s status and viability
needs.                                                   at key development stages.

The CO, OM, and TM should work together as a team        Follow an SDLC methodology that is appropriate for the
in meeting their assigned responsibilities as part of    development effort and perform adequate testing of
establishing a control framework.                        deliverables before making payments.
Source: OIG analysis .



                                                         2
                                                                                                         Background




BACKGROUND
The FDIC is a member of the Federal Financial Institutions Examination Council (FFIEC), a
formal interagency body empowered to prescribe uniform principles, standards, and report
forms for the federal examination of financial institutions and to make recommendations to
promote uniformity in the supervision of financial institutions.∗ The FFIEC has oversight
responsibilities for the collection of Call Reports filed electronically by banks on a quarterly
basis. The Call Report shows a bank’s condition and income and is used for multiple purposes
including assessing the financial health and risk of the institution.

All commercial banks insured by the FDIC and all FDIC-supervised savings banks are required
to submit quarterly Call Reports. Banks have 30 days following the quarter-end to submit their
completed Call Reports electronically, and banks with foreign offices have 45 days. Banks have
the option to use vendor-supplied software to compile and submit their Call Reports.

The FRB processes data for approximately 1,000 banks using a distributed process across 12
Federal Reserve District Banks. The FDIC processes data for approximately 7,700 remaining
banks using a centralized process at its Headquarters location. Although each agency stores
the data separately, ultimately the data are shared. The FDIC and FRB validate Call Report
data for mathematical errors and logical relationships, and their staff addresses exceptions by
contacting respondents and inputting explanations and corrections.

The FDIC, FRB, and OCC collaborated to improve the collection and management of financial
data starting with the information gathered in the Call Reports. This interagency effort, called
the Call Mod project, is intended to provide for collection, storage, and distribution of bank Call
Report data in a central repository shared by the three agencies. The Call Mod project called
for the FDIC to award a multi-million dollar contract to a private-sector contractor to design,
build, and manage the CDR. The primary objectives of the Call Mod project are illustrated in
Table 2.

Table 2: Call Mod Project Objectives
     Project Objectives

     ü    Decrease the time between the receipt of Call Report data by the regulators and the release of data to
          agency and public users.

     ü    Increase the FFIEC Call Agencies’ flexibility to adjust systems quickly to accommodate changing
          information needs.

     ü    Increase consistency in Call Report data available for use within the FFIEC Call Agencies by implementing
          a central repository with consolidated collection and validation processes.

     ü    Decrease the overall cost of collecting, validating, integrating, and distributing Call Report data.

     ü    Improve the transparency of FFIEC Call Agency data requirements by facilitating the exchange of
          information through the use of standards to describe both financial and technical reporting content.

     ü    Improve the efficiency of value-added calculations by performing these calculations one time and using the
          results whenever needed.

Source: CDR Solicitation Draft Statement of Work.

∗
 Other members of the FFIEC include the Board of Governors of the Federal Reserve System (FRB), the Office of the
Comptroller of the Currency (OCC), the Office of Thrift Supervision, and the National Credit Union Administration .



                                                            3
                                                                                     Background




The CDR was premised on using flexible technologies, one of which is a data exchange
standard known as XBRL. XBRL is based on the eXtensible Mark-up Language, a set of
Internet standards, and is geared to tagging each piece of data with enough information to
speed its exchange among users. XBRL taxonomy is a description and classification system for
the contents of financial statements and other business reporting documents. Taxonomies
represent up to hundreds of individual business reporting concepts, mathematical relationships,
and definitions.

The FDIC established the IDM team to identify and implement strategies to improve the
collection, validation, integration, and distribution of financial institution data—the IDM team is
the program office for the XBAT and CDR contracts. IDM is organizationally located within DIR.
Appendix III presents a timeline of key events in the XBAT development process.


Benefits of and Challenges Impacting the XBAT Developme nt Effort

The FDIC received some value from the XBAT engagement. DIR and the CDR vendor
concluded the taxonomies were well developed and are being used by the software vendors to
develop software. DIR considered it imperative to deliver these taxonomies to the software
vendors early in the process to ensure timely implementation of the Call Mod project. The IDM
team also noted that it learned a great deal about XBRL technology and functional requirements
for a business analyst tool from the XBAT effort and that the CDR contractor was able to build
on this knowledge in developing the MMT.

Our conclusions related to the adequacy of contract administration and project management of
the XBAT procurement are presented in the context of recognizing that the IDM team faced a
number of challenges during the time the XBAT services were being procured. XBRL
technology was a new standard that had not been used in the federal government, and the IDM
team had to gain acceptance from three agencies – FDIC, FRB, and OCC – that the XBAT
would work for the overall CDR. Further, several IDM team members told us that the team had
to contend with the pressure of delivering a product within tight time constraints and limited
funding concurrent with satisfying the FDIC Chairman’s Call Mod initiative and the corporate
performance objective of the FDIC making high-quality banking data available to the public on a
more timely basis.




                                                 4
                                                                                Evaluation Results




Functional Requirements

 The FDIC did not establish XBAT functional requirements early enough in the
 contracting process. As a result, neither the FDIC nor the XBAT contractor had a clear
 and consistent understanding of what functionality the XBAT should include.

What Should Have Happened

FDIC’s APM, section 4.A.4.a. specifies that the program office—in this case DIR, or more
specifically, the IDM team—is responsible for identifying procurement requirements and
providing a clear and specific description of the goods or services required. In doing so, the
program office is responsible for preparing a Statement of Work (SOW) that clearly delineates
what is to be procured. The APM states that, in developing the SOW, a thorough understanding
of the required goods or services and expected results is critical. Key items to be considered
and conveyed through the SOW include the nature of the services and minimum standards that
must be met and the deliverables and scheduled
milestones for service delivery.                              The SOW for the XBAT project
                                                               stipulated that the FDIC would provide
FDIC Circular 1320.3, System Development Life Cycle,           the contractor a draft FRD for the
                                                               business analyst tool. The SOW also
(SDLC) Version 3, outlines provisions that apply to all        stated that, in all cases, the principles,
information technology project efforts, including new          phases, and deliverables of the FDIC
system development efforts as well as enhancing and            SDLC as described in Circular 1320.3
converting existing systems. One of the eight phases of        must be applied. The tasks outlined in
                                                               the XBAT SOW included a statement
the SDLC is the Requirements Definition Phase, during          that, during the SDLC Requirements
which user performance needs are analyzed and user             Definition Phase, the FDIC will analyze
requirements are formally defined. Requirements for            and define system requirements, but the
functionality, data, system performance, security and          contractor may be requested to assist in
internal control, portability, and maintainability are         defining these requirements. The SOW
                                                               also included a statement that the FDIC
defined to a level of detail sufficient for system design to   will work with the contractor to gather
proceed. Requirements are formally documented in the           requirements to develop an FRD to be
functional requirements document (FRD) and approved            used by the contractor to design,
by the client and developer.                                   develop, and test the system.



What Actually Happened

XBAT functional requirements were not established early enough in the contracting process and
evolved during the XBAT engagement. The IDM team and the XBAT contractor drafted the first
FRD in late September 2002, followed by two additional draft FRDs dated October 2, 2002 and
October 16, 2002, respectively. A subsequent FRD was drafted in June 2003, 10 months after
the effective date of the contract. The October 2002 and June 2003 FRDs reduced the
requirements specified in the September 2002 FRD. Because the functional requirements were
evolving, neither the FDIC nor the XBAT contractor had a clear understanding of what
functionality the XBAT should include.

XBAT contractor representatives indicated that the FDIC provided a draft FRD in August 2002,
but noted the FRD was not detailed enough and that some requirements were unrealistic and
reflected a lack of understanding about system capabilities and requirements. The XBAT
contractor spent about 2 months adding detail to the FRD. The contractor estimated there were



                                                  5
                                                                                      Evaluation Results




5 to 10 drafts of the FRD, the last versions being drafted in October 2002. The contractor was
not aware of the June 2003 FRD. Table 3 summarizes the various FRDs and their impact on
the XBAT and CDR projects.

Table 3: XBAT Functional Requirements
      Functional                       Description                      Impact on XBAT and/or CDR
     Requirements

    September 2002      Includes 5 categories of 57 requirements:   Provided to CDR bidders on
         FRD            functional, hardware, software,             September 11, 2002.
        (Draft)         performance, and security. Software
                        requirements are described as “To Be
                        Determined.” Also includes SDLC
                        reference and deliverables.

    October 2, 2002     Includes the categories of requirements     Provided to CDR bidders in the
         FRD            mentioned in the September FRD, except      Request for Proposal, Amendment 09,
        (Draft)         for hardware requirements being             with an effective date of October 3,
                        described as “To Be Determined.”            2002.
                        Software requirements are described.
                        Excludes SDLC reference and
                        deliverables, except for a Table of
                        Contents reference.

    October 16, 2002    Includes the same categories of             XBAT Task Order 01, signed
          FRD           requirements as the October 2, 2002 FRD.    December 16, 2002, and effective
         (Draft)        Hardware requirements are described as      August 9, 2002, included a provision for
                        “To Be Determined.” Excludes SDLC           the contractor to develop XBAT to meet
                        reference and deliverables. Includes two    requirements described in the FRD with
                        new functional requirements and one new     the final date of October 16, 2002.
                        performance requirement.
                                                                    However, XBAT Task Order 01 also
                                                                    waived 18 requirements listed in the
                                                                    October 16, 2002 FRD.


    June 2003 FRD      Includes 5 categories of requirements        A fully functioning XBAT was not
        (Draft)        identified in the September 2002 FRD, but    delivered to the CDR contractor. The
                       excludes 17 of the remaining specific        FDIC issued a $840,000 change order
                       requirements listed in the September 2002    to the CDR contractor for an MMT to
                       FRD. Some of the exclusions are in the       replace XBAT.
                       areas of application testing, system
                       outputs, and reliability requirements. The
                       June 2003 FRD included three software
                       requirements and one system sizing and
                       growth requirement that were not included
                       in the September 2002 FRD. The June
                       2003 FRD also included SDLC
                       documentation requirements.
Source: XBAT FRDs, Task Order 01, and OIG Analysis.

The CDR contractor assessed the XBAT software delivered by the FDIC and determined that it
did not meet the September 2002 FRD promised in the CDR solicitation. The CDR contractor
concluded that the XBAT contractor had made significant progress in proving basic XBRL
concepts and had also succeeded in capturing the underlying principles involved in creating
XBRL taxonomies. However, the CDR contractor noted that its bid on the CDR contract was
based on all XBAT FRD requirements being met, and the contractor expected to receive design
documents and code as part of the XBAT that could be used in building CDR components.




                                                      6
                                                                             Evaluation Results




The FDIC agreed with the CDR contractor’s
                                                      The CDR contractor’s assessment of three
assessment of XBAT and awarded a separate             major requirement categories noted the
contract to the CDR contractor to replace the         following issues relative to the XBAT:
XBAT with a fully functioning MMT. The MMT
is a new tool for creating, editing, and publishing   •   The XBAT is able to produce
                                                          taxonomies. However, there are some
taxonomies.
                                                          omissions from the requirements in the
                                                          original FRD, such as validation,
                                                          import/export, and print capabilities.
Consequence
                                                      •   The XBAT provides management of
                                                          taxonomy source data. The remaining
Because functional requirements were evolving             meta-data systems management
during the XBAT development, FDIC and the                 requirements are CDR requirements.
XBAT contractor did not have a clear
understanding of what functionality the XBAT          •   Virtually none of the meta-data testing
should include.                                           has been implemented.



Lessons Learned

Based on our discussions with DIR, the Division of Information and Resources Management,
and Acquisition Services Branch (ASB) officials involved with the XBAT and CDR projects, we
offer the following lessons learned:

   •   Functional requirements should be established early in the procurement process.

   •   When identifying procurement requirements, provide a clear and specific description of
       the goods or services required.




                                                  7
                                                                                Evaluation Results




Procurement Planning and Execution

 The FDIC did not adequately plan or execute the XBAT procurement effort. The IDM
 team waived important XBAT functions that were intended to support the overall CDR
 effort to meet cost and time constraints. Consequently, the quality of the XBAT
 software suffered. Further, because the procurement did not consistently follow the
 APM, the FDIC was party to a contract that did not protect the Corporation’s best
 interests.


What Should Have Happened

The APM provisions for preparing a procurement requirements package include providing a
clear and specific description of the goods or services required and a price estimate for the
goods or services being requested, including the base period and all option periods. Preparing
a cost estimate requires an identification of the cost components that apply to the proposed
contract. Identifying these components requires a clear understanding of the goods or services
being procured.

The APM provides for two basic types of pricing arrangements used in FDIC contracts, fixed
price and level of effort. The APM suggests that the successful use of a firm fixed price
arrangement requires a clear definition of requirements in the SOW and realistic estimates of
work to be performed. A level of effort contract, such as a time and materials contract, is used
when it is difficult to provide a detailed SOW or to estimate the price or duration of time required
for performance.

The APM’s provisions for awarding a contract based on competitive range determination state
that, following the initial evaluation of bids, if there is no one successful offeror and if there is a
need to hold technical and/or cost discussions with offerors, the CO may establish a competitive
range with those firms that have a reasonable chance of being selected for award. After
discussions are completed, offerors are given the opportunity to improve their proposals through
a best and final offer phase. The CO is responsible for ensuring that FDIC personnel do not:
(1) help an offeror bring its proposal up to the level of other proposals through successive
discussion opportunities; (2) disclose technical information pertaining to one proposal that
results in improvement of a competing proposal; (3) indicate to an offeror a price that it must
meet to obtain further consideration; or (4) furnish information about other offerors’ proposed
prices.

The APM contains various provisions regarding basic ordering agreements (BOAs) and task
orders, SDLC contracts and task assignments, contractual documents, official contract files, and
legal review of contracting documents.

BOAs and Task Orders: The APM identifies a BOA as a written agreement between the FDIC
and a contractor containing terms and conditions that will apply to FDIC-issued task orders
during its term, a description of the services to be provided, and the method(s) for the pricing
and issuing of orders under the agreement. A BOA is not a contract because it does not require
that orders be placed and does not contain consideration. Any task order issued against a
BOA, in accordance with the terms and conditions contained in that BOA, becomes a
contractual instrument against which funds are obligated as consideration in exchange for the
goods or services specified in the task order.


                                                  8
                                                                                                             Evaluation Results




The APM procedures for awarding task orders include a requirement that the program office
provide the CO with written requests for all task orders under a BOA. The request should be in
the form of a memorandum or letter accompanied by a written statement of work specific to the
assignment being requested. As shown in Table 4, The APM includes the following minimum
requirements for requesting task orders and what a task order should include.

Table 4: APM Task Order Requirements.

R
Reeqquueesstt ffoorr TTaasskk O
                              Orrddeerr R
                                        Reeqquuiirreem
                                                     meennttss   TTaasskk O
                                                                          Orrddeerr R
                                                                                    Reeqquuiirreem
                                                                                                 meennttss

Include the nature of services and minimum                       Incorporate terms and conditions of the BOA.
standards that must be met, qualifications necessary
to perform the work, deliverables and scheduled
milestones for their delivery, and standards by which
the contractor’s performance will be measured.

Detailed cost estimate.                                          Contain or incorporate a statement of work for the specific task
                                                                 to be performed.

Technical evaluation criteria, if award is to be based           Specify milestones with a schedule of deliverables.
on other than price.

Weighting of technical and price proposals, if award             State a period of performance.
is to be based on other than price.

Procurement Requisition.                                         Pricing information, including ceiling prices for labor and travel.
Source: APM.

SDLC Contracts and Task Assignments: DIRM generally uses contracts with task
assignments for SDLC activities. These contracts allow the OM to issue individual task
assignments under the terms of the contract. In this way, the OM can determine the timing and
scope of deliverables to be provided under a task assignment without having the CO issue the
task assignment. The contract and task assignment SOW should refer to the SDLC.

The program office is responsible for developing the task assignments, ensuring that (1) the
total value of the various task assignments issued pursuant to a contract does not exceed the
original expenditure amount of the contract and (2) that the work detailed in the task
assignments does not go beyond the scope of work set forth in the contract. The OM signs the
task assignments, and a copy is sent to the CO who has responsibility to retain the task
assignment in the official contract file.

Contractual Documents and Official Contract Files: The APM states that the CO shall
prepare and assemble the appropriate contractual documents. The CO is responsible for
sending two originals of the contract to the contractor for signature, executing both copies of the
contract on behalf of the FDIC, returning one of the originals to the contractor, and retaining the
other original contract in the official contract file. The CO is also responsible for providing a
copy of the contract to the designated OM.

The APM states that it is good business practice to have fully executed documents in place
before a contractor commences work. However, on an as-needed basis, and only with the prior
approval of the Assistant Director, Headquarters Acquisition Section, or head of the regional
contracting function, the effective date of a contract may be prior to the execution date. This
provision should be utilized when the CO intends to orally authorize a contractor to begin work
prior to having in place a fully executed contractual document.



                                                                    9
                                                                            Evaluation Results




The APM states that the ASB is responsible for maintaining the official contract file associated
with all phases of the contracting process. Each CO is responsible for establishing a contract
file for each new contract and ensuring that all documents are filed prior to contract award
according to the FDIC Formal Contracting File Checklist, attached as Exhibit XXIII to the APM.
Documentation shall include that which is required under the APM relating to pre-solicitation,
solicitation, evaluation, selection, pre-award reviews, and the award decision.

Legal Review of Contracting Documents: The APM identifies the Contracting Law Unit within
the FDIC’s Legal Division as a member of the team supporting the FDIC’s contracting process.
The Unit supports the development of contracting policy and procedures and provides advice
and legal sufficiency reviews. The APM stipulates procurement responsibilities for the Legal
Division, including requirements to (1) review solicitation packages for contracts of $100,000 or
more; (2) review complex contracting requirements, as requested by the CO; (3) provide advice
as required on issues involving contract scope; and (4) provide other assistance as requested
by the CO. The APM does not specifically require that the Legal Division review contract
documents unless requested by the CO.


What Actually Happened

ASB and the IDM team did not adequately plan the XBAT contract, and the IDM team
underestimated the costs to develop XBAT. Although XBAT was a research and development
effort employing new technology, ASB and the IDM team used a firm fixed price contract with
short time frames and evolving requirements. Firm fixed price contracts are generally
appropriate for low-risk engagements with well-defined requirements. Given the urgent need to
develop the XBAT in time for delivery to the CDR vendor and the evolving functional
requirements, the XBAT procurement would most likely not be categorized as a low-risk
engagement suitable for firm fixed pricing. Appendix IV presents how XBAT procurement
requirements changed over the course of the contract.

As shown in Figure 1, the costs for developing an XBRL business analyst tool increased from
an early estimate of almost $500,000 to a cost of more than $1.5 million (considering XBAT and
MMT development costs). We observed that XBAT development costs increased by more than
80 percent from the BOA to Task Order 01 at the same time that the IDM team was waiving
important functional requirements.




                                               10
                                                                                                         Evaluation Results




            Figure 1: XBRL Business Analyst Tool Estimated and
            Actual Development Costs

                                    $2,000,000
                                                                                                    $840,000
                 Development Cost
                                    $1,500,000



                                    $1,000,000                                       $703,330
                                                        $498,400
                                                                      $370,000
                                     $500,000                                                     $703,330



                                           $0
                                                 Procurement        BOA      Task Order 01      XBAT & MMT
                                                  Requisition
                                                                   XBAT    MMT

            Source: XBAT Contracting Files .

XBAT contractor representatives informed us that they provided labor rates and labor hour
estimates in response to the initial XBAT request for proposal. However, the XBAT contractor
told us that during the best and final offer period, FDIC reduced the number of option years and
imposed a price ceiling based on FDIC budget authority. In response, the XBAT contractor
presented a best and final offer bid of $370,000 to develop XBAT—almost 26 percent lower
than the FDIC’s estimate. FDIC officials we interviewed did not recall providing a price ceiling or
FDIC budget authority information to the bidders during the best and final offer period.

Shortly after the contract had been awarded, the TM questioned the adequacy of contract
funding for developing XBAT. Further, just 2 months following the start of work, the XBAT
contractor indicated that the option year on the contract would need to be executed because the
base year funding had been expended. The XBAT
contractor also indicated at that time that work        In October 2003, the FDIC awarded a change
could be completed by the end of December 2002          order to the CDR contract that specifically
                                                        identifies a breakdown of the firm fixed price
for total funding of $1.1 to 1.3 million, nearly        of the contract for each major deliverable. The
double the firm fixed price negotiated for the XBAT     contract specifies four project deliverables,
contract, unless requirements were reduced. The         including a master project plan and a design
XBAT contractor acknowledged that, with the             document, and identifies related payments and
                                                        completion dates for each deliverable. In
benefit of hindsight, its best and final offer bid was  addition, the contract includes an acceptance
not sufficient to complete the XBAT contract            clause that requires the contractor to obtain an
requirements.                                           acceptance signature by FDIC of formal
                                                                                 deliverables. The acceptance procedures
                                                     state that the FDIC will accept the deliverables
Moreover, the milestones established for
                                                     as complying with the SOW or provide a
development of the taxonomies and XBAT appear        written statement that identifies in reasonable
unrealistic. The TM said that, in hindsight, the     detail significant deviations between the
4-month timeframe to develop and deliver the         deliverable and the statement of work. FDIC
XBAT was unrealistic, especially for new             did not include such an acceptance clause in
                                                     the XBAT task order.
technology. The TM further stated that the goal of
developing a fully functioning XBAT by December 2002 to accommodate the CDR was also
unrealistic. The IDM project manager informed us that the FDIC awarded bonus points to the



                                                                      11
                                                                                           Evaluation Results




XBAT contractor during the best and final offer for early delivery of the taxonomies and
software. An unsigned July 17, 2002 technical evaluation results memorandum providing
conclusions regarding the technical merits of bidders’ oral presentations stated that the XBAT
contractor provided a reasonable time schedule for performing the required tasks.

The XBAT contract award and execution also did not fully comply with APM provisions. ASB
advertised the XBAT solicitation as a task-order-based contract, but ASB executed a BOA and
issued task assignments that are typically used with an SDLC contract. The CO issued an
advanced authorization letter on August 9, 2002, authorizing the XBAT contractor to proceed
with work while contracting documents were being finalized. However, ASB and the contractor
did not execute a task order for the BOA until December 16, 2002, 4 days before the XBAT
products were scheduled to be completed for delivery to the FDIC. We saw no evidence that
the ASB Assistant Director approved the effective date of the contract, as required by the APM.
Further, as illustrated in Table 5, we noted several other contract award and execution activities
that were departures from APM provisions.

Table 5: XBAT Contract Award and Execution Departures From APM Provisions
Description of Action in Question

The CO did not provide a copy of the signed contract for the XBAT to the designated OM.

The task order contained a nearly 2-year period of performance (August 9, 2002 through June 30, 2004) that
differed from the BOA’s 1-year period of performance, starting August 9, 2002 and ending August 9, 2003.

The firm fixed price of the task order exceeded the BOA compensation ceiling by $30,000.

Key documents associated with the XBAT contract award and execution were missing from the official contract file,
including the unsuccessful bidders’ proposals, a signed selection recommendation report, a SOW for the signed
BOA, and a SOW for the task assignments and task order.

Changes and waivers of functional requirements were made without the CO’s approval. The OM issued two task
assignments – one that waived a number of contracting requirements without authorization from the CO.
Source: OIG Analysis.

In regard to the Legal Division’s involvement in XBAT procurement activities, we interviewed the
Counsel assigned to the XBAT procurement effort. The Counsel indicated that his role was to
review the contract and associated task orders for legal sufficiency. The Counsel reviewed the
solicitation package, documents associated with the August 2002 advanced authorization letter,
and the December 2002 Task Order 01. The Counsel noted that ASB and the IDM team were
in a hurry and that there was a rush to issue the contract documents. We made the following
observations about the Counsel’s review of XBAT procurement documents:

•   The Counsel reviewed the solicitation documents as required by the APM. However, ASB
    issued the XBAT Request for Proposal 5 days prior to receiving the Counsel’s notice of
    review and acceptance.

•   The CO indicated that he would not honor the TM’s request for an advanced authorization
    allowing the contractor to commence work prior to awarding a contract without the Legal
    Division’s review of the Intellectual Property (licensing) terms of the XBAT software. The
    Counsel provided contract language to the CO regarding XBAT licensing provisions prior to
    the issuance of the advanced authorization letter.




                                                        12
                                                                               Evaluation Results




•   We saw no evidence in the XBAT contract files of the Legal Division’s review of the BOA,
    although the APM does not specifically require a legal review of the contract unless such a
    review is requested by the CO.

•   The Counsel informed us that he did not review the XBAT task assignments.

•   In regard to the task order, the XBAT contracting and project management files indicated
    that the TM developed the task order and sent it electronically to the CO, OM, and IDM team
    for review on October 23, 2002. The XBAT contract files indicated that the CO did not
    request the Legal Division to review the revised XBAT task order until December 10, 2002,
    6 days prior to the execution of the task order and 10 days prior to the scheduled date of
    XBAT delivery.


Consequence s

Because the XBAT procurement was not adequately planned or executed, the quality of the
XBAT software suffered. Further, because the procurement did not consistently follow the APM,
the FDIC was party to a contract that did not protect the Corporation’s best interests.


Lessons Learned

    •   Changes to system requirements should not be driven solely by resource and schedule
        constraints—consideration must also be given to impact on business needs.

    •   Research and development efforts do not lend themselves to a firm fixed price
        contracting vehicle, given the uncertain and evolving nature of the services. The type of
        contract awarded should be based on the level of risk to the Corporation, with fixed price
        contracts generally used when risk has been reduced to a reasonable level.

    •   When procuring services for research and development, communicate to everyone
        involved that the project is a research and development effort, requiring closer
        monitoring.

    •   A time and materials level of effort contracting vehicle may be more suitable for a
        research and development engagement, given the difficulty in providing a detailed SOW
        or to estimate the price or time required for a research and development effort.

    •   Involve the Legal Division early in procurement planning, and subject key contracting
        documents such as the contract and SOW to legal review and concurrence prior to
        contract execution. Focus the legal review on both legal sufficiency and protecting the
        Corporation’s interests, particularly for contract provisions that pose the greatest risk for
        the Corporation.




                                                 13
                                                                              Evaluation Results




Contract Administration

 The CO and OM did not completely fulfill their responsibilities and relied on the TM for
 making changes to the functional requirements, accepting contract deliverables, and
 approving a key invoice payment. As a result, the procurement did not have adequate
 checks and balances to help ensure the project’s success.

What Should Have Happened

The APM stipulates that contract administration encompasses oversight of all relationships
between the FDIC and the contractor relating to contractor performance and provides the
following responsibilities for the CO, OM, and TM.

Contracting Officer: Responsibility for ensuring        The BOA executed for the XBAT engagement
compliance with the contract rests with the CO,         also included the following provisions
who may delegate certain authorities to other           regarding the OM and CO.
FDIC personnel. The CO’s responsibilities
include (1) monitoring contract performance for            •   FDIC Contracting Officer. The term
                                                               “Contracting Officer” means a person
compliance with its terms and conditions; (2)                  designated in writing by the FDIC with
enforcing contract provisions; (3) executing                   FDIC delegated authority to enter into,
modifications to the contract; (4) assisting the OM            modify, administer, and terminate
or other program office representatives, as                    contracts and orders. The Contracting
                                                               Officer is the only person authorized
requested, in oversight of the technical business
                                                               by FDIC to issue any instructions or
requirements of the contract; and (5) jointly with             directions that affect any increase or
the OM, verifying costs incurred and invoiced to               decrease in the cost of this agreement,
the FDIC under the contract and monitoring                     any change in delivery schedule or
expenditures against the expenditure ceiling.                  which change any other term of the
                                                               agreement.
Oversight Manager: The OM is designated by                 •   FDIC Oversight Manager. The term
the program office and has responsibility for                  “Oversight Manager” means the
(1) overseeing the performance requirements of                 person designated in writing by the
the contract; (2) providing business and technical             Contracting Officer to represent the
                                                               FDIC for the purpose of monitoring
liaison between the FDIC and the contractor;                   technical performance under any task
(3) notifying the CO of any need to modify the                 order awarded. The Oversight
contract; and (4) referring all questions regarding            Manager is not authorized to issue any
contract provisions to the CO. The OM is solely                instructions or directions which effect
                                                               any increase or decrease in the price
responsible for carrying out all duties and                    of any task order awarded or which
responsibilities set forth in the Letter of Oversight          change the delivery date(s) or Period
Manager Confirmation issued by the CO, with                    of Performance.
copies provided to the contractor and the OM.

Technical Monitor: It may be appropriate in very complex areas of performance to appoint one
or more TMs for a contract. The duties of a TM are a subset of the duties of the OM, but the
responsibility for contractor oversight remains with the OM. TMs are designated by the OM and
appointed in a Letter of Technical Monitor Confirmation issued by the CO, with copies sent to
the contractor and the OM.

The APM also requires that OMs and TMs be adequately trained to oversee contractor
performance within the terms of the contract. The APM requires that OMs and TM attend the



                                                  14
                                                                           Evaluation Results




FDIC Oversight Management Training course and the FDIC Contract Administration Training
course and pass an examination for each course. Further, OMs and TMs must take a 1-day
refresher course every 3 years.

The APM also requires a Contract Administration Plan (CAP) for contracts over $100,000. The
objective of a CAP is to ensure that the CO and OM have a common understanding of both the
contractor’s and the FDIC’s obligations under the contract. The CO prepares the CAP with the
assistance of the OM immediately following contract award.


What Actually Happened

Contract administration was not adequate. The CO and the OM relied too heavily on the TM for
approving deliverables, changing requirements, and approving invoice payments. Two DIRM
OMs noted that the XBAT TM was very involved with the project and that both relied on the
expertise and “hands-on” involvement of the TM for acceptance of some of the deliverables.

The TM sent an electronic message to the OM in early August 2002, requesting agreement on
contract management authority and responsibilities. The electronic message was not copied to
the CO. The TM acknowledged in the message that oversight management of the contract had
been assigned to DIRM. However, the TM assumed responsibility for:

   (1)   technical management of the contract,
   (2)   the success of the project,
   (3)   developing and providing task assignments to the OM for review,
   (4)   managing day-to-day contract operations and informing the OM of contract status, and
   (5)   directing the contractor’s work.

The first OM served in his position from August 2002 until late October 2002 at which time the
second OM was appointed. The change in OMs was the result of corporate reorganization
activities. The CO did not issue an APM-required Letter of Oversight Manager Confirmation to
the first OM. In addition, the CO did not issue an APM-required Letter of Technical Monitor
Confirmation to the TM. These letters were issued for the current OM and TM.

Moreover, the FDIC’s Training Management Server showed no record of the required OM and
contract administration training for the OMs or the TMs appointed for the XBAT contract. We
subsequently learned that the current OM completed OM training and took an online refresher
course.

Finally, the official contract files for the XBAT did not contain a CAP. The OM and TM
confirmation letters and a CAP would have been beneficial for the CO and the OM to
understand their roles in overseeing the contract, to ensure awareness of specific deliverables
and milestones, and to monitor changes to requirements, timeframes, and funding.


Consequence

Because the CO and OM did not completely fulfill their responsibilities and relied too heavily on
the TM for managing the contract, the procurement did not have adequate checks and balances
to help ensure the project’s success.



                                               15
                                                                         Evaluation Results




Lessons Learned

  •   The CO, OM, and TM should work together as a team in meeting their assigned
      responsibilities as part of establishing a control framework.

  •   The OM should involve the CO in addressing contractor performance matters.

  •   OM and TM roles and responsibilities need to be clearly documented and communicated
      in the Letter of Oversight Manager (or Technical Monitor) Confirmation.

  •   A CAP is a good tool for helping ensure that the contractor performs in accordance with
      the terms and conditions of the contract and is required by the APM.

  •   A CAP allows both the OM and CO to identify specific deliverables and due dates and
      track future modifications and funding.




                                             16
                                                                          Evaluation Results




Change Management and Project Integration

 The FDIC did not exercise adequate change management or project integration during
 the XBAT development effort and the CDR solicitation process. The CDR solicitation
 promised a fully functioning XBAT at the same time that the IDM team was waiving
 important functional requirements to meet cost constraints and product delivery
 milestones. As a result, the FDIC promised a software product containing
 functionality that it could not deliver and had to reprocure the effort.


What Should Have Happened

The PMBOK® Guide (discussed below) and the APM include the following information relevant
to change management and project integration.

Change Management: The Project Management Institute (PMI) has conducted extensive
research and analysis in the field of project management and published a standards guide in
2000, entitled A Guide to the Project Management Body of Knowledge (PMBOK® Guide). The
guide documents proven practices, tools, and techniques that have become generally accepted
in the field of project management, including information systems development and
implementation. The PMBOK® Guide is an approved standard of both the American National
Standards Institute and the Institute of Electrical and Electronics Engineers. The guide
identifies nine distinct knowledge areas associated with successful project management. The
nine areas are integration, scope, time, cost, quality, human resources, communications, risk,
and procurement management.

PMBOK® identifies project scope management as a subset of project management that
includes the processes required to ensure that the project includes all the work required, and
only the work required, to complete the project successfully. One of the processes involves
controlling changes to project scope. Scope change control is concerned with influencing the
factors that create scope changes to ensure that changes are agreed upon, determining that a
scope change has occurred, and managing the actual changes when and if they occur. Scope
change control must be integrated with the other control processes, such as scheduling, cost,
quality, risk, and staffing.

The APM contains a chapter of provisions regarding changes and modifications to contracts and
categorizes the types of changes as administrative or substantive. Substantive changes include
a change in the amount of fees to be paid to the contractor, a change in the delivery schedule,
and a change in the quantity and nature of deliverables. The CO is responsible for determining
whether a proposed modification is within the scope of the contract. The OM is responsible for
identifying the requirement for a modification, determining whether the cost to the FDIC caused
by the modification will exceed the expenditure ceiling, and preparing a detailed, written
explanation of the reason for and nature of the change or modification.

Project Integration: According to PMBOK®, the work of the project must be integrated with
the ongoing operations of the performing organization. Project integration management
includes the processes required to ensure that the various elements of the project are properly
coordinated. It involves making tradeoffs among competing objectives and alternatives to meet
or exceed stakeholder needs and expectations and includes project plan development, project
plan execution, and integrated change control.



                                              17
                                                                                 Evaluation Results




Integrated change control relates to coordinating changes across the entire project and is
concerned with: influencing the factors that create changes to ensure that changes are agreed
upon, determining that a change has occurred and managing the actual changes when and as
they occur. One of the tools and techniques for integrated change control involves additional
planning to allow for prospective changes that may require new or revised cost estimates,
modified activity sequences, schedules, resource requirements, or other adjustments to the
project plan. These changes must be communicated to appropriate stakeholders, as needed.
The CDR request for proposal included a copy of the FDIC’s General Provisions for contracts
dated May 2002. The provisions contained the following language in a section addressing
FDIC-furnished property:

       The delivery or performance dates for this Contract are based upon the expectation that
       FDIC-furnished property suitable for use (except for property furnished as-is) will be
       delivered to Contractor at the times stated in the Statement of Work, or, if not so stated,
       in sufficient time to enable Contractor to meet the Contract’s delivery or performance
       dates.


What Actually Happened

Change Management: As discussed earlier, the FDIC issued Task Order 01 which waived
certain functional requirements to meet the December 2002 deadline for delivery of the XBAT to
the CDR winning bidder. Waived requirements included SDLC deliverables and the process to
trace requirements and test all aspects of the system. However, the task order did not explicitly
identify the SDLC and system testing waivers. The CO needed this information to determine
whether the requested changes were within the scope of the original contract, as required by
the APM for contract modifications.

Further, the OM and TM did not cross-reference the requirements waived in the task order to
the individual requirements in the original FRD to clearly indicate those XBAT specifications that
were no longer required. In October 2003, 10 months after the task order was signed, the IDM
project manager prepared a schedule comparing            In October 2003, the FDIC awarded a change
the waived requirements to the October 2002 FRD.         order to the CDR contract to develop an MMT
Nevertheless, the waived requirements should             to replace XBAT. The MMT change order
have been referenced at the time the task order          contained change control procedures as part
                                                         of the contract requirements. The contract
was being negotiated especially because the FDIC
                                                         requirements state that, in the event that the
had promised that the XBAT would be delivered to         FDIC or the contractor wishes to alter the
the CDR winning bidder in accordance with the            statement of work, various procedures must
September and October 2002 FRD specifications.           be followed, including (1) documenting the
                                                           description and reason for the proposed
                                                           change; (2) coordinating change requests
In September 2003, DIR appointed a new OM to               with the OM; and (3) investigating the impact
oversee the remaining work on the XBAT contract.           of the change request on the price, timetable,
The OM prepared a list of requirements from the            statement of work, and specifications and
task order that had not been completed and                 relevant obligations under the agreement.
                                                           These change control procedures would have
discussed the requirements with the XBAT
                                                           benefited the XBAT engagement.
contractor. The XBAT contractor told the OM that
the contractor believed that the FDIC agreed to waive these requirements, but the waivers were
documented only in status reports and electronic messages rather than being handled through
the formal contracting modification process. The OM estimated the cost of the unfinished work
to be $40,000.


                                                  18
                                                                             Evaluation Results




Project Integration: XBAT, an important component of the overall CDR project, was being
developed concurrent with the CDR solicitation process. The FDIC promised to deliver the
taxonomies and software, meeting the September and October 2002 functional requirements, to
the winning bidder for the CDR contract at the same time that the IDM team was waiving XBAT
functional requirements. However, the IDM team did not assess the impact that the waivers and
changes to the functional requirements might have on the CDR project.

As late as October 2, 2002, FDIC’s responses to questions posed by the CDR bidders indicated
that XBAT would be delivered by December 31, 2002. In early November 2002, the XBAT
contractor informed the TM and CO that more funding would be needed to complete all
requirements of the original XBAT contract, but the “core functionality” could be delivered for the
original contract amount. The changes to the FRD requirements were not factored into the CDR
solicitation activities occurring during the period August 2002 through January 2003. Figure 2,
on page 21, illustrates the timing of activities that parallel the XBAT development and the CDR
solicitation efforts.

The XBAT was a relatively minor procurement effort but was also a critical path item to the
much larger CDR effort. In September 2002, FDIC established the Capital Investment Review
Committee (CIRC) to implement a systematic management review process for FDIC capital
investments, defined as initiatives with total capital outlays in excess of $3 million. The CIRC
currently monitors 14 initiatives, 1 of which is the CDR project. The XBAT is not a CIRC
initiative because its development and maintenance costs are well below the $3 million
threshold. However, the FDIC’s capital investment management review process should include
CIRC initiatives as well as related or interdependent contracts and initiatives.

Further, the IDM team did not respond proactively to indications that XBAT development was
experiencing problems and did not amend the CDR solicitation or notify CDR bidders that they
would be receiving the XBAT software “as is” as opposed to receiving a fully functioning
software product. The IDM project manager told us that he empowered the TM and placed too
much reliance on his staff to ensure that the XBAT was progressing as planned and scheduled.
In particular, the project manager relied too heavily on the TM to do the right thing and did not
establish control points to independently verify that XBAT was on schedule, within cost
estimates, and meeting performance objectives. The IDM project manager indicated that in
hindsight, the FDIC should not have promised to deliver to CDR bidders an XBAT software
meeting the September and October 2002 functional requirements. Instead, the FDIC should
have offered XBAT “as is” without specific representations and warranties.


Consequence

The FDIC promised a software product containing functionality that it could not deliver and had
to issue an $840,000 change order to the CDR contractor to replace XBAT.


Lessons Learned

   •   Closely coordinate projects that are interdependent and promise only what can be
       realistically delivered.




                                                19
                                                                          Evaluation Results




•   A change management process is needed to ensure that modifications are documented,
    communicated, and agreed upon.

•   In situations where contract requirements are waived, the waived requirements should
    be clearly cross-referenced to the original contract requirements.

•   In situations where FDIC determines that it is appropriate to split projects among multiple
    contracts, it is important that these projects are closely coordinated and that contracting
    documents specifically identify how deliverables from the separate contracts will be
    integrated.

•   Bidders should be made aware of any modifications to solicitation documents, including
    requirements or milestone changes of related contracts or projects.

•   Contracts should not generally be dependent on contract deliverables that have not
    been fully tested and accepted.

•   When an initiative requires Capital Investment Review Committee review and
    monitoring, the Committee should monitor all contracts related to the initiative.

•   In situations where FDIC property, such as software, is furnished to a contractor, strong
    consideration should be given to providing the property “as is,” rather than “suitable for
    use,” especially for property being produced through another contract or research and
    development effort.




                                             20
                                                                                                                                                   Evaluation Results




Figure 2: Project Integration Timeline
                                XBAT CONTRACT

                 ASB Advanced             Draft             XBAT BOA                   Draft                Task Assignment #1           Task Order #1
                 Authorization Letter     Functional        w/ SOW                     Functional           Signed: 10/17/02
                                          Requirements                                 Requirements                                      Signed 12/16/02
                 Signed 8/09/02           Document          Effective: 8/09/02         Document                                          Effective: 8/09/02
                                                            Signed: 9/25/02
                 Not to Exceed:           9/11/02                                      (Revision 10)        Task Assignment #2           Cancelled and ratified
                 $131,733                                   System                     10/16/02             Signed: 10/17/02             task assignments #1 & 2
                                                            development
                                                            estimated at                                    Waived certain               System development
                                                            $395,000                                        functional                   increased to $712,000
                                                                                                            requirements.



                                         CDR SOLICITATION
      Request for                 Amendment to the       Amendment to the        Proposals             Amendment to the RFP                                   Best and Final
      Proposal Issued             RFP                    RFP                     received                                                                     Offers
                                                                                                       October 2002                                           Received from
      7/31/02                     August 2002            September 2002          10/07/02                                                                     XBAT
                                                                                                       CDR Request for Quote and                              Contractor and
                                                                                                       Quality & Assurance Responses,                         CDR Winning
                                                                                                       promising a fully functioning                          Bidder.
                                                                                                       XBAT meeting the 9/02 and 10/02
                                                                                                       FRDs.                                                  January 2003




          August                         September                                October                                     December                           January
Source: OIG analysis of XBAT and CDR files .




                                                                                  21
                                                                              Evaluation Results




Communications

 Communication within and between the IDM team, senior-level managers, and the
 acquisition team was not effective. Accordingly, DIR executives and CDR bidders
 were not aware of the true status of the XBAT development effort.

What Should Have Happened

The PMBOK® Guide identifies project communications management as a subset of project
management that includes the processes required to ensure timely and appropriate generation,
collection, dissemination, storage, and disposition of project information. It provides the critical
links among people, ideas, and information that are necessary for success. Everyone involved
in the project must be prepared to send and receive communications and must understand how
the communications in which they are involved as individuals affect the process as a whole.
Major processes of project communications management consist of:

   •   Communications Planning – determining the information and communications needs of
       the stakeholders, the individuals who need the information, when they will need it, and
       how it will be given to them.

   •   Information Distribution – making needed information available to project stakeholders in
       a timely manner.

   •   Performance Reporting – collecting and disseminating performance information,
       including status reporting, progress measurement, and forecasting.

   •   Administrative Closure – generating, gathering, and disseminating information to
       formalize phase or project completion.

The APM requires that the acquisition team maintain open communications at all times during
contracting efforts.


What Actually Happened

Communications surrounding the XBAT engagement were not effective on several levels:

Within the IDM team. The XBAT TM waived contract requirements at the same time that the
CDR Technical Evaluation Panel (TEP) Chairman was issuing solicitation documents and
responding to bidder questions and answers about XBAT’s functionality. The TEP Chairman’s
files included e-mail documentation addressed to the IDM project manager, CDR TEP
Chairman, and XBAT TM from another IDM team member. The e-mail message discussed the
need to notify CDR bidders of changes in XBAT functionality to avoid the potential of CDR
contract default on the part of the FDIC. However, the IDM team did not act on this warning.

Further, it became necessary for the XBAT TM and the IDM project manager to recuse
themselves from the CDR solicitation due to potential conflicts of interest. The TM’s recusal
was necessary because he was working to secure post-retirement employment with a
subcontractor to the CDR winning bidder. The TM coordinated his post-employment efforts with



                                                 22
                                                                            Evaluation Results




the FDIC’s Ethics Office. We verified that the TM did not violate post-employment ethics
restrictions. However, because he was arranging for employment with a subcontractor to the
CDR winning bidder, the TM was precluded from discussing or being involved in the CDR
solicitation and contract award effort.

The IDM project manager also recused himself from        During a January 2003 CIRC meeting, the
participating in the CDR solicitation because he         IDM project manager inappropriately
owned stock in a company that was bidding for the        announced the identity of the CDR
                                                         winning bidder and subcontractor. The
CDR contract. The project manager stated this
                                                         CIRC is to judge proposed capital
recusal impaired his ability to communicate with the     investments on the merits of the project,
CDR TEP Chairman. The project manager told us            not based on the reputation of the
that he announced his recusal to the rest of the IDM     vendors implementing the project. Two
team. However, the project manager did not discuss       CIRC members, the Deputy to the
                                                         Chairman and the DIR Director
this issue with the FDIC Ethics Office or communicate    immediately recused themselves from
his recusal to DIR executive managers or anyone          further participation in the CDR CIRC
outside of the IDM team.                                 process because they owned stock in the
                                                         CDR subcontractor—the same company
                                                         from which the project manager had
We verified the amount of stock that the project         recused himself.
manager owned during the CDR solicitation and
confirmed with the FDIC’s Ethics Office that the project manager was not required to (1) recuse
himself from the CDR solicitation effort or (2) communicate his recusal to anyone. While the
project manager was technically not required to announce his recusal, given his role as project
manager for a $40 million dollar contracting effort, it would have been: (1) prudent for the
project manager to discuss the stock ownership issue with the Ethics Office and (2) appropriate
to communicate the recusal to executive DIR management in the spirit of full disclosure. Doing
the latter may have resulted in DIR executive managers reorganizing the IDM team to achieve a
more open communication environment.

The IDM Team and Senior DIR and FDIC Management. The XBAT and CDR status reports
did not adequately communicate the timing and resource problems that the IDM team was
encountering with XBAT or the potential impact that XBAT problems could have on the CDR
project. For example, the October 2002 IDM status report included a discussion that the XBAT
contract was being modified to a firm fixed price contract for delivery of the Call Report
taxonomies and the XBAT tool by December 20, 2002. However, the status report did not
communicate that the XBAT FRD had been changed and that the XBAT contractor would need
additional funding to complete all functional requirements by December 2002. This information
was critical at the time because the XBAT taxonomies and software had been promised as
deliverables to the winning bidder on the CDR contract.

Senior DIR and FDIC management told us they relied on the executive and management-level
acquisition team to oversee the less expensive XBAT contract. There was no evidence that
these senior managers were actively involved in validating the information presented in status
reports especially at key decision points such as CDR solicitation and contract award. An
executive DIR manager told us that during status meetings with the IDM project manager, she
asked questions about the status of the XBAT contract and any issues that could impact the
CDR contract, but received information only that the XBAT project was running smoothly and
on-track. Further, we saw no e-mailed correspondence communicating questions or concerns
about the XBAT contract above the IDM project manager level.




                                              23
                                                                           Evaluation Results




This level of executive oversight may have been reasonable, given the relatively low-dollar
value of this contract and the high-level members of the contract management team assigned to
administer the contract. Because it was an integral part of the larger CDR contract, the XBAT
contract needed to have effective control mechanisms in place that would have given executive
DIR management the true status of the XBAT contracting and development effort. The contract
administration process, oversight management function, and the SDLC are critical control
activities that are designed to provide executive managers a comfort level about a project’s
success. While each of these control activities was in place, these processes or functions were
ultimately not completely effective.

Members of the XBAT Acquisition Team. We saw numerous e-mails evidencing inadequate
communication among the CO, OM, and TM. For example, on October 18, 2002, the OM
informed DIRM management of problems being encountered on the XBAT engagement,
including the OM not receiving (1) a signed copy of the contract, (2) a Letter of Oversight
Manager Confirmation, or (3) the SOW. As another example, the TM sent a message to DIRM,
the OM, and the IDM project manager on August 9, 2002, communicating technical
management and oversight management responsibilities. This message was not copied to the
CO or anyone in ASB.


Consequence

CDR bidders were not informed about the status of the XBAT product and the change in
functional requirements. Potential ethics issues were not communicated to senior DIR
managers. Communication within the IDM team and acquisition team and between the IDM
team and senior DIR managers was negatively affected.


Lessons Learned

   •   Continually evaluate communication channels to ensure they are open and effective and
       provide balanced and complete information about a project’s status and viability at key
       development stages.

   •   For information technology engagements, there should be a clear line of responsibility
       and communication between DIRM and the requesting program office. For large
       contracts, it may be appropriate to document lines of responsibility and expectations for
       communication in writing.

   •   When members of the project or contracting team encounter personal or ethical conflicts
       that impact communication, the team should develop other means of effectively
       communicating project status and project issues or consider changes to the teams.




                                               24
                                                                           Evaluation Results




System Development Life Cycle

 The XBAT development did not fully comply with the FDIC’s System Development Life
 Cycle. Most importantly, the FDIC paid the XBAT contractor before completely testing
 XBAT. Consequently, the FDIC had limited financial leverage to compel performance
 by the XBAT contractor.

What Should Have Happened

FDIC Circular 1320.3, System Development Life Cycle (SDLC) Version 3.0, dated July 17,
1997, defines a uniform process for developing, maintaining, and enhancing all FDIC automated
information systems, and establishes the SDLC Version 3.0 as the standard methodology for
system development at the FDIC. The objective of the SDLC is to employ a standard set of
practices to ensure the delivery of quality systems that meet user needs in a timely, cost-
effective manner.

The SDLC provides a structured framework and organizes            The SDLC is divided into the
roles, responsibilities, and development activities by clearly    following eight
defined stages and phases. The phases of the SDLC are             interdependent phases:
                                                                       1. Planning
delineated by formal end products, quality reviews, and                2. Requirements
milestone concurrence and approval. Circular 1320.3 requires              Definition
compliance with the SDLC process described in the Circular             3. External Design
by all developers and corporate users involved in planning for         4. Internal Design
                                                                       5. Development
and the development, acquisition, and maintenance of
                                                                       6. Testing
application systems, software, and hardware that support (1) a         7. Implementation
business function of the FDIC, (2) one or more offices within          8. Maintenance
the FDIC, or (3) the exchange of data.

DIRM has overall responsibility for the management and development of corporate information
technology. The program manager in information technology projects is the principal user
representative from the FDIC division or office requesting or relying upon the automated
information system. As the sponsor of the system, the program manager is the final user
approval authority for the system. As such, the program manager is accountable and
responsible for defining the required performance and ensuring that the stakeholders in the user
community are involved in each phase of activities and that the developed application is
addressing user needs.


What Actually Happened

The XBAT development did not fully comply with the FDIC’s SDLC provisions outlined in
Circular 1320.3. For example, DIRM and the IDM team did not complete the SDLC test phase
before paying the XBAT contractor. The test phase provides that the user and other designated
testers validate that the functional requirements defined in the FRD are satisfied by the
developed system and that there are no adverse effects on the overall process or other existing
systems.




                                              25
                                                                              Evaluation Results




The SDLC requirements were included in         The September 2002 FRD included the following
the request for proposal for the XBAT          requirements:
solicitation, the BOA executed for the XBAT
                                               Section 4.5, Testing and Traceability: A process
contract, and the September 2002 FRD           must be in place to trace requirements and test all
containing functional requirements for the     aspects of the system. Specifically,
XBAT. These documents specifically
referenced FDIC Circular 1320.3. The           •   For testing of the developed system (or for future
XBAT SOW included the provision that, in           enhancements), test data must be provided to
                                                   enable a thorough test of the system to be
all cases, the principles, phases, and             completed.
deliverables of the FDIC SDLC as
described in Circular 1320.3 must be           •   Modules for each function must be separate so
applied to the XBAT application.                   that testing of one process can be made
However, the SDLC provisions were                  independent of another process.
removed from the revised FRDs prepared         •   Changes and additions to the requirements must
for XBAT in October 2002. Further, the             be added to the Traceability Matrix for reference
SDLC provisions were not included in the           during future phases.
task order awarded for the XBAT
                                               These requirements were eliminated from the
engagement.
                                               October 2002 and June 2003 XBAT FRDs.

In assessing the XBAT product delivered by the FDIC, the CDR contractor determined that
XBAT met the SDLC requirements for the external design and internal design phases.
However, the CDR contractor’s assessment indicated that XBAT did not meet the other SDLC
requirements. One of the OMs told us that the TM, in consultation with ASB contracting
representatives, agreed to a partial waiver of SDLC requirements, including the requirement for
testing the system.

The XBAT contractor told us that XBAT user acceptance testing was the responsibility of the
FDIC. Under the SDLC, user acceptance testing is the final test of the system being developed.
The XBAT task order included the following provision related to user acceptance testing:

       The FDIC will develop test scripts for and sponsor the User Acceptance Testing [UAT].
       The contractor will assist in UAT which includes fixing bugs or system errors uncovered
       during this process. This will be completed no later than March 31, 2003.

The FDIC’s Systems Development Life Cycle Manual Version 3.0 requires information
technology development projects to include a test plan to ensure that all aspects of the system
are adequately tested and that the system can be successfully implemented. The test plan is
begun in the requirements definition phase and refined throughout the design and development
phases. Table 6 presents the various types of tests that should be conducted during system
development, the party responsible for performing the test, and whether the test was performed
under the XBAT development effort.




                                              26
                                                                                            Evaluation Results




Table 6: SDLC Testing Requirements
Type of Test     Description                                                 Performed By       Performed under
                                                                                                XBAT?

Unit/Module      Validates module’s logic and adherence to FRD and           Individual         80 percent
Test             technical specifications.                                   developing the     completed;
                                                                             code.              requirement waived
                                                                                                in Task Order 01.

Integration      Involves the subsystems that are made up of integrated      Developing         Completed in
Test             groupings of software units and modules.                    organization       June 2003.

System           Independent test that determines whether the system         DIRM               90 percent
Qualification    complies with standards and whether it satisfies                               completed in
Test             functional and technical requirements when executed on                         June 2003.
                 target hardware using operational data files. Software
                 performance, response time, ability to operate under
                 stressed conditions, interfaces to other applications,
                 security, and integrity control functions are tested.

User             Performed by the user in a nonproduction environment        Client who will    90 percent
Acceptance       which mirrors the environment in which the system will be   use the system.    completed in
Test             used. System interoperability, all documentation, system                       June 2003.
                 reliability, and the level to which the system meets user
                 requirements will be evaluated. Performance, recovery,
                 and restart, and data quality testing may be performed.
Source: FDIC SDLC Manual and IDM Information.

The XBAT contractor submitted three invoices during 2002 under the XBAT contract, as shown
in Table 7. The FDIC held each invoice for several months and ultimately paid the invoices in
February and March 2003.

Table 7: XBAT Invoices and Payment Dates
Invoice       Invoice Amount     Invoice Date    Check Date       Purpose

1             $75,690            9/26/02         2/10/03          Progress bill for professional services to support
                                                                  the development of (1) XBRL taxonomies, (2)
                                                                  XBAT, and (3) XBRL demonstration application.

2             $299,592           11/04/02        2/05/03          Progress bill for work performed 9/1/02 –
                                                                  10/31/02 in support of the development of XBRL
                                                                  taxonomies and XBAT. Invoice stated that
                                                                  55 percent of the work related to Task Order 01
                                                                  had been completed.

3             $328,048           12/31/02        3/06/03          Progress bill for work performed 11/1/02 –
                                                                  12/31/02 in support of the development of XBRL
                                                                  taxonomies and XBAT. Invoice stated that the
                                                                  December 20th delivery of work under Task
                                                                  Order 01 had been completed.
Source: Contracting files.

It appears that the FDIC paid the third invoice before the FDIC had completed user acceptance
testing and determined that XBAT was fully functioning. For example, following FDIC payment
of the third invoice, an XBAT status report, dated April of 2003, notes that 78 issues are
outstanding, 72 of which pertain to user acceptance testing. The XBAT contractor noted that of
the 78 issues remaining, 18 (23 percent) were critical (1 issue) or high priority (17 issues).




                                                        27
                                                                            Evaluation Results




Consequence

Because the FDIC did not fully test XBAT before paying the XBAT contractor, FDIC had limited
financial leverage to hold the XBAT contractor responsible for fulfilling contract requirements
satisfactorily.


Lessons Learned

   •   System development contracting efforts should follow the FDIC’s System Development
       Life Cycle requirements contained in FDIC Circular 1320.3 or an equivalent.

   •   Contractors should be paid for their services only after deliverables are tested and
       accepted.




                                               28
                                              Corporation Comments and OIG Evaluation




CORPORATION COMMENTS AND OIG EVALUATION
Our draft report contained no recommendations, and a written corporate response was not
required. However, we solicited comments from DIR, DIRM, and the Division of Administration
(DOA) on the lessons learned presented in the report and the discussion of the XBAT
contracting and project management issues. DIR did not issue formal comments, but met with
us to clarify certain aspects of the report. We subsequently made minor editorial changes to the
report to address DIR’s comments. DIRM did not issue formal comments, but shared the report
with DIRM managers responsible for contract administration and project management activities
for their consideration on future projects. The Associate Director, ASB, provided DOA’s written
response, dated March 18, 2004. DOA agreed that although the FDIC received value from the
XBAT procurement, the project’s success was impaired by certain contracting and project
management issues. DOA’s response summarizes some contracting efforts ASB has in
process or expects to undertake in 2004 to enhance the overall controls governing the
contracting process and to minimize the issues identified in our report for future system
development efforts. DOA’s response is presented in its entirety in Appendix V to this report.




                                              29
                                                                                   Appendix I
                                                            Objective, Scope, and Methodology



Appendix I: Objective, Scope, and Methodology
The objective of this evaluation was to assess the adequacy of the FDIC’s contract
administration and project management for the development of the XBAT. We conducted this
review in response to a request from FDIC senior management that the OIG and the Office of
Internal Control Management evaluate the XBAT contracting and development efforts. The
requestors expressed concerns that the XBAT product delivered for the CDR contractor was not
fully functional and asked that we identify lessons learned in contract administration and project
management of the XBAT procurement that could be applied to the larger CDR effort.


Scope

To accomplish our objective:

   •    We evaluated the effectiveness of the implementation of specific management controls
        related to the contract administration and project management for the development of
        the XBAT. These controls included the policies and procedures contained in the FDIC
        Acquisition Policy Manual as they apply to the XBAT procurement and oversight controls
        such as status reporting of the XBAT development project.
   •    We reviewed the XBAT procurement activities from fund authorization in May 2002
        through contract award in December 2002. Because the XBAT contract is still in effect,
        we updated information through December 2003 for our report.
   •    We reviewed the FDIC Acquisition Policy Manual – Revision 1, effective March 31, 2000,
        for provisions that would apply to the XBAT procurement, which was awarded
        subsequent to the March 31, 2000 date and prior to the July 2003 subsequent update to
        the FDIC Acquisition Policy Manual.
   •    We conducted our evaluation work at the headquarters offices of DIRM, DIR, and DOA
        in Washington, D.C., during the period October through December 2003.


Methodology

We performed the following activities for our evaluation:

   •    We interviewed headquarters DIRM, DIR, and DOA officials who were responsible for
        contract administration and project management for the development of XBAT.
   •    We interviewed representatives of the XBAT contractor.
   •    We interviewed an official in FDIC’s Ethics Office.
   •    We reviewed key documents related to contract administration and project management
        of the XBAT development project, including:

           o   FDIC Acquisition Policy Manual.
           o   Oversight Manager Files.
           o   Technical Monitor Files.
           o   XBAT Pre-Award Files.
           o   XBAT Contract Files.
           o   IDM XBAT Files.
           o   IDM Monthly Project Status Reports on XBAT and CDR Projects.
           o   DIR Monthly Status Reports.


                                                30
                                                                               Appendix I
                                                        Objective, Scope, and Methodology


           o   DIRM Status Report to the FDIC’s Chief Operating Officer.
           o   XBAT Contractor Status Reports.
           o   Minutes of Call Modernization Project Steering Committee Meetings.
           o   Electronic Messages provided by two Technical Monitors, two Oversight
               Managers, the CDR TEP Chairperson, IDM Team members, and the IDM Project
               Manager.
           o   Electronic Messages included in the XBAT Pre-Award and Contract Files.
           o   Bidders’ Questions and FDIC’s Answers for the XBAT Solicitation.
           o   Bidders’ Questions and FDIC’s Answers for the CDR Solicitation.
           o   XBAT Functional Requirements Documents, dated September 2002; October 2,
               2002; October 16, 2002; and June 2003.
           o   Various Versions of the CDR Contractor’s Assessment of XBAT.
           o   CDR Change Order 01, executed October 25, 2003.
           o   FDIC Training Server Information for Oversight Manager Training.

We corroborated automated information used to support our evaluation results and lessons
learned with other sources to ensure the information was sufficiently reliable. For example, we
discussed information contained in project status reports and electronic messages with key
personnel involved in the XBAT procurement activities.

Our work to address the Government Performance and Results Act included reviewing the
FDIC’s 2003 Annual Performance Plan, in particular, the annual performance goal to maintain
sufficient and reliable information on insured depository institutions. Embedded in the annual
performance goal is a target to develop a more efficient approach to bank data collection and
management. The CDR project is designed to modify and improve data management
processes to more effectively collect, manage, and share information about insured institutions.
The XBAT is an integral part of the CDR.

In addition, we reviewed the FDIC 2003 Agenda: Corporate Performance Objectives, Third
Quarter Summary Report. In the Strategic Objective, Stability, the FDIC has established a
performance objective to make high-quality banking data available to the public on a more
timely basis. As part of the CDR project, the FDIC, FRB, and OCC are actively working with the
financial institutions and trade groups on strategies to improve data quality and timeliness when
the new CDR is implemented.

We did not develop specific evaluation procedures to detect abuse and illegal acts because we
did not consider abuse and illegal acts to be material to the evaluation objective. However,
throughout our evaluation, we were sensitive to the potential of illegal acts, including fraud,
waste, abuse, and mismanagement.

We did not assess the FDIC’s compliance with applicable laws and regulations because we did
not identify specific laws or regulations pertaining to the implementation of contract
administration, or project management controls.

We conducted our evaluation in accordance with generally accepted government auditing
standards.




                                               31
                                                                              Appendix I
                                                       Objective, Scope, and Methodology


Project Management Criteria

Although the FDIC is not required to comply with the Project Management Body of Knowledge
PMBOK® Guide, we used it as the primary criteria for assessing FDIC’s project management
controls for the XBAT procurement, especially in the areas of change control management and
project integration. This guide contains generally accepted industry practices related to
successful project management. Generally accepted means that the knowledge and practices
described are applicable to most projects most of the time and that there is widespread
consensus about their usefulness. Generally accepted does not mean that the knowledge and
practices described are to be applied uniformly on all projects; the project management team is
always responsible for determining what is appropriate for any given project.




                                              32
                                                                                                                             Appendix II
                                                                                      XBAT Contracting and Project Management Challenges



Appendix II: XBAT Contracting and Project Management Challenges

   What Actually             What Should Have Happened                    Consequences                                     Lessons Learned
    Happened
FDIC did not establish    In initiating procurement actions,          Because functional         1. Functional requirements should be established early in the
XBAT functional           requirements should be defined to           requirements were          procurement process.
requirements early        provide a clear and specific description    evolving during the
enough in the             of the goods or services required.          XBAT development, the      2. When identifying procurement requirements, provide a clear and
contracting process.      APM 4.A.4.a.(3)                             FDIC and XBAT              specific description of the goods or services required.
                                                                      contractor did not have
                                                                      a clear and consistent
                                                                      understanding of what
                                                                      functionality XBAT
                                                                      should include.

FDIC did not              A procurement requirements package          Because the XBAT           1. Changes to system requirements should not be driven solely by
adequately plan or        should include a schedule for delivery of   procurement was not        resource and schedule constraints – consideration must also be given
execute the XBAT          goods or performance of services and a      adequately planned or      to impact on business needs .
procurement effort.       price estimate, including the base          executed, the quality of
The IDM team waived       period and all option periods . (APM        the XBAT software          2. Research and development efforts do not lend themselves to a firm
important XBAT            4.A.4.a. (3) and (5))                       suffered. Further,         fixed price contracting vehicle, given the uncertain and evolving nature
functions that were                                                   because the                of the services. The type of contract awarded should be based on the
intended to support the   A BOA is a written agreement between        procurement did not        level of risk to the Corporation, with fixed price contracts generally
overall CDR effort to     the FDIC and a contractor, containing       consistently follow        being used when risk has been reduced to a reasonable level.
meet cost and time        terms and conditions that will apply to     acquisition policies and
constraints. Further,     FDIC-issued task orders during the term     procedures, the FDIC       3. When procuring services for research and development,
the XBAT procurement      of the agreement. (APM 3.B.3.b)             was party to a contract    communicate to everyone involved that the project is a research and
did not consistently                                                  that did not protect the   development effort, requiring closer monitoring.
follow the APM.           A System Development Life Cycle             Corporation’s best
                          contract with task assignments can be       interests.                 4. A time and materials level of effort contracting vehicle may be more
                          used in DIRM contracts that incorporate                                suitable for a research and development effort, given the difficulty in
                          a system development life cycle                                        providing a detailed statement of work or to estimate the price or
                          documenting the steps to be taken by                                   duration of time required for a research and development effort.
                          the contractor. (APM 3.B.9.a.)
                                                                                                 5. Involve the FDIC Legal Division early in procurement planning and
                                                                                                 subject key contracting documents such as the contract and statement
                                                                                                 of work to legal review and concurrence prior to contract execution.
                                                                                                 Focus the legal review on both legal sufficiency and protecting the
                                                                                                 Corporation’s interest, particularly for contract provisions that pose the
                                                                                                 greatest risk for the Corporation.




                                                                                33
                                                                                                                             Appendix II
                                                                                      XBAT Contracting and Project Management Challenges




   What Actually            What Should Have Happened                    Consequences                                      Lessons Learned
    Happened
The CO and OM did        The OM is responsible for overseeing        Because the CO and          1. The CO, OM, and TM should work together as a team in meeting
not completely fulfill   the performance requirements of the         OM did not completely       their assigned responsibilities as part of establishing a control
their responsibilities   contract, provides business and             fulfill their               framework.
and relied on the TM     technical liaison between the FDIC and      responsibilities and
for making changes to    the contractor, reviews and approves        relied too heavily on the   2. The OM should involve the CO in addressing contractor
the functional           invoices for payments, verifies             TM for managing the         performance matters.
requirements,            satisfactory delivery of contract items,    contract, the XBAT
accepting contract       and notifies the CO of any need to          procurement did not         3. OM and TM roles and responsibilities need to be clearly
deliverables, and        change the contract. (APM 7.B.1.h.          have adequate checks        documented and communicated in the Letter of OM and TM
approving a key          and i.)                                     and balances to help        Confirmation.
invoice payment.                                                     ensure the project’s
                         The CO is responsible for ensuring          success.                    4. A CAP is a good tool for helping ensure that the contractor performs
                         compliance with the contract. (APM                                      in accordance with the terms and conditions of the contract and is
                         7.B.2.a.)                                                               already required by the APM.

                         The duties of a TM are a subset of the                                  5. A CAP allows the OM and CO to identify specific deliverables and
                         duties of the OM, but the responsibility                                due dates and track modifications and funding.
                         for contractor oversight remains with the
                         OM. (APM 7.B.1.d.)

FDIC did not exercise    Scope change control involves               The FDIC promised a         1. Closely coordinate projects that are interdependent, and promise
adequate change          influencing the factors that create scope   software product            only what can be realistically delivered.
management or project    changes to ens ure that changes are         containing functionality
integration during the   agreed upon, determining that change        that it could not deliver   2. A change management process is needed to ensure that changes
XBAT development         has occurred, and managing the              and had to issue an         are documented, communicated, and agreed upon.
effort and the CDR       changes when they occur. Scope              $840,000 change order
solicitation process.    change control must be integrated with      to the CDR contractor to    3. In situations where contract requirements are waived, the waived
The CDR solicitation     other control processes, such as            replace XBAT.               requirements should be clearly cross-referenced to the original
promised a fully         scheduling, cost, quality, risk, and                                    contract requirements.
functioning XBAT at      staffing. (PMBOK® Guide 5.5 and 4.3)
the same time that the                                                                           4. In situations where FDIC determines that it is appropriate to split
IDM team was waiving                                                                             projects among multiple contracts, it is important that these projects
important functional                                                                             are closely coordinated and that contracting documents specifically
requirements to meet                                                                             identify how deliverables from the separate contracts will be
cost constraints and                                                                             integrated.
product delivery
milestones.                                                                                      5. Bidders should be made aware of any modifications to the
                                                                                                 solicitation documents, including requirements or milestone changes
                                                                                                 of related contracts or projects.




                                                                                34
                                                                                                                              Appendix II
                                                                                       XBAT Contracting and Project Management Challenges




   What Actually            What Should Have Happened                    Consequences                                       Lessons Learned
    Happened
                                                                                                  6. Contracts s hould not generally be dependent on contract
                                                                                                  deliverables that have not been fully tested and accepted.

                                                                                                  7. For major projects involving multiple contracts, the CIRC should
                                                                                                  consider all related contracts.

                                                                                                  8. In situations where FDIC property, such as software, is furnished to
                                                                                                  a contractor, strong consideration should be given to providing the
                                                                                                  property “as is,” rather than “suitable for use,” especially for property
                                                                                                  being produced through another contract or research and
                                                                                                  development effort.

Communication within     Project communications management           CDR bidders were not         1. Continually evaluate communication channels to ensure they are
and between the          includes the processes required to          informed about the           open, effective, and provide balanced and complete information about
project team, senior-    ensure timely and appropriate               status of XBAT and the       a project’s status and viability at key development stages.
level managers, and      generation, collection, dissemination,      change in functional
the acquisition team     storage, and disposition of project         requirements. Potential      2. In information technology engagements, there should be a clear line
was not effective.       information. (PMBOK® Guide 10)              ethics issues were not       of responsibility and communication between DIRM and the
                                                                     communicated to senior       requesting program office. For large contracts, it may be appropriate
                                                                     DIR managers.                to document lines of responsibility and expectations for
                                                                     Communication within         communication in writing.
                                                                     the IDM team and
                                                                     acquisition team and         3. In situations where members of the project or contracting team
                                                                     between the IDM team         encounter personal or ethical conflicts that impact communication, the
                                                                     and DIR senior               team should develop other means of effectively communicating project
                                                                     managers was                 status and project issues or consider changes to the teams.
                                                                     negatively affected.

XBAT development did     FDIC Circular 1320.3, System                Because FDIC did not         1. System development contracting efforts should follow FDIC’s
not fully comply with    Development Life Cycle (SDLC)               fully test XBAT before       System Development Life Cycle requirements contained in FDIC
the FDIC’s System        Version 3.0, included in the solicitation   paying the XBAT              Circular 1320.3, or an equivalent.
Development Life         for XBAT and the Functional                 contractor, FDIC had
Cycle. Most              Requirements Documents, defines a           limited financial            2. Contractors should be paid for their services only after deliverables
importantly, the FDIC    uniform process for developing,             leverage to hold the         are tested and accepted.
paid the XBAT            maintaining, and enhancing all FDIC         XBAT contractor
contractor before        automated information systems, and          responsible for fulfilling
completely testing the   establishes the FDIC System Develop-        contract requirements .
XBAT.                    ment Life Cycle Manual Version 3.0 as
                         the standard methodology for system
                         development at the FDIC.
Source: OIG Analysis.



                                                                                35
                                                                                           Appendix III
                                                                         Key Events in the XBAT Project



Appendix III: Key Events in the XBAT Project

Month                Event

December 2001        FDIC Chairman announces goal of providing accurate and timely Call Report data to the
                     public as soon as it is available.

June 2002            XBAT request for proposal issued by FDIC.

July 2002            FDIC developing requirements for the XBAT tool.

August 2002          FDIC issues advance authorization letter to XBAT contractor while contracting documents
                     are undergoing review.

September 2002       FDIC and Contractor sign Basic Ordering Agreement for XBAT.

October 2002         FDIC OM and XBAT contractor sign Task Assignments 01 & 02.

November 2002        FDIC continues working on a Task Order.

December 2002        FDIC and XBAT contractor sign Task Order 01 effective August 9, 2002. Work completed on
                     version 1 of XBAT.

January 2003         Best and Final Offer for the CDR Contract. XBAT promis ed as a deliverable to the winning
                     bidder on the CDR Contract. XBAT undergoing quality assurance testing.

February 2003        XBAT Basic Ordering Agreement is modified to increase funding by $30,000.

March 2003           Call Report analysts participate in quality assurance testing for the validation criteria
                     component of XBAT.

April 2003           Version 1.3 of XBAT undergoing quality assurance testing.

May 2003             FDIC awards CDR contract.

June 2003            XBAT given to CDR contractor for analysis of XBAT architecture and outputs.

July 2003            CDR contractor completing a detailed analysis of XBAT, focusing on business and technical
                     requirements.

August 2003          CDR contractor conducts an analysis of the status of the XBAT tool against the Functional
                     Requirements Document posted as part of the CDR Request for Proposal.

September 2003       XBAT contractor continues to correct nine issues/problems identified in the XBAT application.

October 2003         CDR Contract Change Order 01 awarded for design and development of a Meta-data
                     Management Tool to replace XBAT.
Source: XBAT Project Management Files.




                                                        36
                                                                                                                                        Appendix IV
                                                                                                                      XBAT Procurement Requirements




 Appendix IV: XBAT Procurement Requirements
Procurement     Request for Proposal            BOA signed                  Task Assignment 01             Task Assignment 02       Task Order 01 signed
Requirement     Issued June 7, 2002             September 25, 2002          Signed October 17, 2002        Signed October 17,       December 20, 2002,
                                                                                                           2002                     effective August 9, 2002
Scope of        Provide consulting              No change.                  Analyze and present an         Develop XBAT to          By 12/20/02, develop XBRL Call
Work            support for the                                             optimal architectural          create and maintain      Report frameworks for the
                development of a set of                                     solution for the               XBRL Call Report         reporting periods of 3/2001 and
                XBRL taxonomies and a                                       development of an XBRL         frameworks.              3/2002, and analyze, design,
                business analyst tool for                                   Business Analyst Tool                                   and develop an application
                FFIEC Call Reports.                                         and complete                                            called XBAT.
                                                                            development of XBRL
                                                                            Call Report frameworks                                  By 6/30/04, provide technical
                                                                            for period March 2001                                   input to FDIC for developing
                                                                            through December 2002.                                  frameworks for 6/2001, 9/2001,
                                                                                                                                    12/2001, 6/2002, 9/2002,
                                                                                                                                    12/2002, and 3/2003.
Functional      The FDIC will provide           No change.                  Contractor is required to      The contractor will      The XBAT will be developed to
Requirements    draft requirements for a                                    deliver a written functional   develop the XBAT to      meet requirements in the FRD
                FFIEC XBRL business                                         requirements document          meet requirements as     with the final date of October 16,
                analyst tool.                                               for XBAT by September 6,       described in the FRD     2002.
                                                                            2002.                          with the final date of
                                                                                                           September 30, 2002.
SDLC            In all cases, the principles,   No change.                  SDLC requirements were         SDLC requirements        SDLC requirements not
                phases, and deliverables                                    not specifically mentioned     were not specifically    specifically mentioned in Task
                of the FDIC SDLC as                                         in Task Order 01.              mentioned in Task        Order 01 or referenced in the
                described in FDIC Circular                                                                 Order 02, but were       FRD.
                1320.3 must be applied.                                                                    referenced in the
                                                                                                           September 2002 FRD.

Funding         5/08/02 procurement             September 2002 BOA for      N/A                            N/A                      Task Order covering 23 months
Provisions      requisition for $1.19           $682,330 covering 4                                                                 for $712,330, of which $703,330
                million covering 6.5 years.     years.                                                                              was related to development.
                --Development --$498,400        --Development--$395,200
                --Maintenance --$693,456        --Maintenance--$287,130

Period of       June 3, 2002 through            August 9, 2002 through      August 13, 2002 through        September 18, 2002       August 9, 2002 through June 30,
Performance     December 31, 2008.              August 9, 2003 with three   March 31, 2003.                through March 31,        2004.
                                                1-year options.                                            2003.

 Source: FDIC Contracting Files for XBAT.



                                                                                  37
                                  Appendix V
                       Corporation Comments


CORPORATION COMMENTS
                Appendix V
     Corporation Comments




39
